APPENDIX

:

la
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-6181
United States of America,
Petitioner-Appellant,
v.
Oliver Lee White,
Respondent-Appellee.
Argued: May 8, 2019
Decided: June 18, 2019
Appeal from the United States District Court for the
Eastern District of North Carolina, at Raleigh.
James C. Dever III, District Judge
No. 5:17-hc-02162-D
Before NIEMEYER, DIAZ, and RICHARDSON,
Circuit Judges.
Reversed and remanded with instructions by
published opinion. Judge Niemeyer wrote the
opinion, in which Judge Diaz and Judge Richardson
joined.

2a

ARGUED: Benjamin M. Shultz, UNITED STATES
DEPARTMENT OF JUSTICE, Washington, D.C., for
Appellant. Jaclyn Lee DiLauro, OFFICE OF THE
FEDERAL PUBLIC DEFENDER, Raleigh, North
Carolina, for Appellee. ON BRIEF: Joseph H. Hunt,
Assistant Attorney General, Mark B. Stern, Civil
Division, UNITED STATES DEPARTMENT OF
JUSTICE, Washington, D.C.; Robert J. Higdon, Jr.,
United States Attorney, OFFICE OF THE UNITED
STATES ATTORNEY, Raleigh, North Carolina, for
Appellant. G. Alan DuBois, Federal Public Defender,
OFFICE OF THE FEDERAL PUBLIC DEFENDER,
Raleigh, North Carolina, for Appellee.

NIEMEYER, Circuit Judge:
With its filing of a certificate in the district court
that Oliver White is a “sexually dangerous person,”
the government commenced this civil proceeding
under 18 U.S.C. § 4248 to commit White to the
custody of the Attorney General. After ordering and
receiving a mental examination of White, the district
court found that White was “mentally incompetent to
understand the nature and consequences of the
section 4248 proceeding against him and to assist
properly in his defense in the section 4248
proceeding” and therefore dismissed the proceeding.
A proceeding under § 4248 would have required the
government to prove that White (1) “engaged or
attempted to engage in sexually violent conduct or
child molestation,” (2) “suffers from a serious mental
illness, abnormality, or disorder,” and (3) “would

3a
have serious difficulty in refraining from sexually
violent conduct or child molestation if released.” Id.
§ 4247(a)(5), (6). The district court held that § 4248
“permits a court to dismiss a section 4248 proceeding
against an incompetent person who contests all three
elements” and alternatively that “permitting such a
[§ 4248 proceeding] and ensuing commitment would
violate procedural due process as applied to that
person.”
On appeal, the government contends that the
district court erred in both rulings, and we agree. We
therefore reverse the district court’s judgment and
remand with instructions to conduct a hearing on the
§ 4248 proceeding initiated against White.
I
White, now 31, is an intellectually disabled Native
American man who was born in Crow Agency,
Montana. His biological mother could not care for
him because she abused alcohol and drugs, and he
suffered from fetal alcohol syndrome. With an IQ
of 55 or 56 and elementary math and reading skills,
he struggled in school and in gaining employment.
As one doctor summarized, White’s “thought process
was clearly impoverished, his mood was confused,
[and] his affect was shallow.”
In 2009, when White was 21, a federal grand jury
in the District of Montana indicted him for the
sexual abuse of four female minors under the age
of 12. The government, however, dismissed the
charges as part of a deferred prosecution agreement
in which White agreed to reside with his mother and
have no further contact with minors.

4a
In 2012, a federal grand jury in the District of
Montana indicted White for a second time, charging
him with abusive sexual assaults of female minors
under the age of 12. After White was found
incompetent to stand trial, the court dismissed the
charges and released White to his family.
On July 22, 2016, for a third time, a federal grand
jury in the District of Montana indicted White,
charging him with aggravated sexual abuse of female
minors under the age of 12. Again, after White was
found incompetent to stand trial, the court dismissed
the charges.
While White was in custody at the Federal Medical
Center in Butner, North Carolina, for a mental
examination in connection with the 2016 charges,
the government filed a certificate in the district court
under 18 U.S.C. § 4248(a), certifying that White was
a “sexually dangerous person” and petitioned the
court to commit White to the custody of the Attorney
General. In its certificate, the government pointed to
the past charged conduct and to psychological
assessments of White to claim that White was a
“sexually dangerous person” under § 4248.
After receiving the certificate, the district court
directed the Federal Public Defender to represent
White and appointed a licensed psychiatrist as a
mental health examiner of White. White’s counsel
then filed motions for the appointment of a guardian
ad litem, to dismiss the § 4248 certificate filed
against him, and, in the alternative, for a
competency hearing, contending that White’s mental
incompetence would preclude subjecting him to a
§ 4248 hearing.

5a
The district court granted the motion to appoint a
guardian ad litem and, before conducting a § 4248
hearing, ordered a competency hearing “to determine
whether White is presently suffering from a mental
disease or defect rendering him mentally
incompetent to the extent that he is unable to
understand the nature and consequences of the
proceeding under 18 U.S.C. § 4248 against him or to
assist properly in his defense.” In ordering the
competency hearing, the court overruled the
magistrate judge, who recommended that White’s
motion for a competency hearing be denied because
§§ 4241 and 4248 contemplate commitment for
individuals in White’s “exact situation.”
After conducting the competency hearing, the court
determined that “White [was] currently suffering
from a mental disease or defect, . . . which render [ed]
White unable to understand the nature and
consequences of the § 4248 proceeding against him
and to assist properly in his defense in the § 4248
proceeding.” Given that White contested all three
elements of § 4248 — (1) that he had previously
“engaged or attempted to engage in sexually violent
conduct or child molestation”; (2) that he “suffers
from a serious mental illness, abnormality, or
disorder”; and (3) that as a result, he “would have
serious difficulty in refraining from sexually violent
conduct or child molestation if released,” 18 U.S.C.
§ 4247(a)(5), (6) — the court expressed concern,
particularly because White contested the element
requiring proof of prior conduct, that “the respondent
face[d] the prospect of indefinite commitment arising
from a trial focused on both his past conduct and
present mental condition even though he lack[ed] the

6a
capacity to understand the section 4248 trial or to
participate rationally in his defense.” Concluding
that § 4248 allowed it to dismiss the § 4248
proceeding “against an incompetent person who
contests all three elements” and alternatively that
conducting a § 4248 proceeding would violate White’s
constitutional right to procedural due process, the
court granted White’s motion to dismiss the
proceeding.
From the district court’s judgment dated
December 6, 2018, the government filed this appeal.
II
We address first whether § 4248 or any other
related provision in Chapter 313 of Title 18 permits a
district court to dismiss a § 4248 proceeding against
a person because he is mentally incompetent.
Section 4248 was enacted in 2006 as part of the
Adam Walsh Child Protection and Safety Act
of 2006, Pub. L. No. 109-248, 120 Stat. 587, to
“protect children from sexual exploitation and violent
crime,” id., in the context of a “growing epidemic of
sexual violence against children,” H.R. Rep. No. 109218, pt. 1, at 20 (2005). The provision was included
as an addition to Chapter 313 of Title 18 (18 U.S.C.
§§ 4241-4248), which addresses “Offenders with
Mental Disease or Defect.” Section 4248 itself was
included as “a modest addition to a set of federal
prison-related mental-health statutes that have
existed for many decades,” and it “focuses directly
upon persons who, due to a mental illness, are
sexually dangerous.” United States u. Comstock, 560
U.S. 126, 137, 141 (2010).

7a
Section 4248 provides that after the government
files a certificate with a district court that a person
“is a sexually dangerous person,” the court “shall
order a hearing” to determine whether the person is
indeed a sexually dangerous person. 18 U.S.C.
§ 4248(a). For a person to be found “sexually
dangerous,” the government must demonstrate that
the person (1) has “engaged or attempted to engage
in sexually violent conduct or child molestation”; (2)
“suffers from a serious mental illness, abnormality,
or disorder”; and (3) “would have serious difficulty in
refraining from sexually violent conduct or child
molestation if released.” 18 U.S.C. § 4247(a)(5), (6);
see also Comstock, 560 U.S. at 129; United States u.
Antone, 742 F.3d 151, 158 (4th Cir. 2014). If the
court finds, “by clear and convincing evidence,” that
the person is a sexually dangerous person, then it
must commit the person to the custody of the
Attorney General, id. § 4248(d), who is charged to
treat the person and release him if and when a court
finds, by a preponderance of the evidence, that the
person is no longer dangerous or no longer dangerous
under prescribed conditions of release, id. § 4248(a),
(d), (e).
Section 4248 makes no provision for the release of a
person subject to a government certificate because
the person is “mentally incompetent.” Indeed,
§ 4241(d) indicates otherwise. Under that section,
which addresses hearings for mental incompetency
in the context of criminal proceedings, if the person
is found mentally incompetent “to the extent that he
is unable to understand the nature and consequences
of the proceeding^ . . . against him or to assist
properly in his defense,” the court must commit him

8a
to the Attorney General for hospitalization. 18 U.S.C.
§ 4241(d). And if hospitalization does not sufficiently
alleviate the condition — i.e., if the person is unlikely
to regain competency — “the defendant is subject to
the provisions of ... § 4248.” Id. And § 4248
accordingly provides for civil commitment following a
hearing if the court finds that the person is sexually
dangerous. Id. Indeed, § 4248 explicitly recognizes its
role following a hearing under § 4241 for mental
incompetency. See id. § 4248(a) (addressing persons
committed to the custody of the Attorney General
“pursuant to § 4241(d)”). There is little doubt that
§ 4248 applies to persons found mentally
incompetent under § 4241.
Of course, to read into these provisions a defense
that a mentally incompetent person who is sexually
dangerous cannot be committed to the custody of the
Attorney General under § 4248 would defeat the core
purpose of the statute — to protect the public from
sexually dangerous persons. Under such a reading, a
mentally incompetent person, who had raped women
on three separate occasions, but never stood trial for
the rapes because he was mentally incompetent,
could not be removed from society under § 4248, thus
leaving the public with the very risk that § 4248 was
designed to eliminate. See Comstock, 560 U.S. at 141
(noting that § 4248 is designed to protect the public
from mentally ill individuals who are sexually
dangerous); United States v. Comstock, 627 F.3d 513,
520 n.2 (4th Cir. 2010) (recognizing that criminal
defendants found mentally incompetent to stand
trial are appropriately subject to § 4248 proceedings
because they “may have committed the criminal
offense due to their mental illness or incompetence”).

9a
Chapter 313 of Title 18 explicitly recognizes the
problem of mentally incompetent persons who are
dangerous to society, providing expressly for their
commitment, whether they are simply dangerous
persons (addressed by § 4246) or sexually dangerous
persons (addressed by § 4248). In both
circumstances, commitment is subject to the
procedures and safeguards expressly provided in
each of those sections.
In this case, the district court, after receiving the
government’s § 4248 certificate, determined to
conduct an initial hearing to determine whether
White was mentally competent. The government
objected to such a hearing because the need to
determine mental incompetency related legally only
to criminal proceedings and a finding under § 4241
that one was mentally incompetent would not
address any requirement for commitment under
§ 4248. The court overruled the objection and
conducted a competency hearing, after which it
concluded that White was indeed mentally
incompetent. The court thereupon dismissed the
§ 4248 proceeding without a § 4248 hearing because,
as it explained, White was unable to understand the
nature and consequences of the proceeding and to
assist properly in his defense. But in conducting a
mental competency hearing and not a § 4248
hearing, the court failed to recognize that
Chapter 313 authorizes a § 4248 hearing for persons
found mentally incompetent under § 4241.
While all hearings under Chapter 313 are governed
by § 4247(d) — see, e.g., 18 U.S.C. § 4241(c);
§ 4246(c); § 4248(c) — a hearing to determine
incompetency is authorized by § 4241, which the

10a
district court did not explicitly recognize, although
that was noted by the magistrate judge. And the
court’s conclusion that White’s mental incompetence
precludes his being subject to a § 4248 hearing is in
tension with both § 4241(d) and § 4248(a).
Section 4241(d) explicitly authorizes a § 4248
hearing for a person found mentally incompetent and
whose
condition has
not improved with
hospitalization. And § 4248(a) provides that § 4248 is
applicable to persons found incompetent under
§ 4241(d). In short, if a person is found mentally
incompetent under § 4241 and is not likely to get
better, he still remains subject to confinement under
§ 4248 if he is found “sexually dangerous.” Id.
§ 4248(a). With this interaction of § 4241 and § 4248,
we cannot conclude that somehow § 4248 authorizes
a court to dismiss a § 4248 proceeding because the
person is mentally incompetent. There is simply
nothing to suggest that a mentally incompetent
person who is certified to be sexually dangerous
must be released because “he is unable to
understand the nature and consequences of the
proceedings against [him] or assist properly in [his]
defense.” Id. § 4241(a). Indeed, to so conclude would
eviscerate the core purpose of § 4248.
We therefore hold that Chapter 313 of Title 18, and
§ 4248 in particular, did not authorize the district
court to dismiss the § 4248 proceeding against White
on the ground that he was found to be mentally
incompetent.
Ill
The district court separately worried whether the
§ 4248 proceeding against White would violate the

11a
Due Process Clause in that White “face[d] the
prospect of indefinite commitment” based on “both
his past conduct and present mental condition even
though he lacks the capacity to understand the
[§ 4248 proceeding] or to participate rationally in his
defense.” In particular, the court focused on White’s
ability to defend against proof of his prior conduct
under the statute’s requirement that the government
show that he had “engaged or attempted to engage in
sexually violent conduct or child molestation.” 18
U.S.C. § 4247(a)(5). It stated:
The central focus of the first element under
the Adam Walsh Act looks back in time and
requires the United States to prove by clear
and convincing evidence at least one instance
of actual or attempted sexually violent conduct
or child molestation. In nearly every Adam
Walsh Act case, the respondent does not
contest the first element, and the United
States simply presents a judgment of
conviction from a criminal case where the
respondent was convicted of actual or
attempted sexually violent conduct or child
molestation. In this case, however, White has
never been convicted of any crime, much less
actual or attempted sexually violent conduct
or child molestation. Thus, ... in this
section 4248 proceeding, the United States will
have to present witnesses and evidence
concerning the first element. The United
States also will present arguments to the court
seeking to persuade the court that the United
States has proven that White has engaged in
at least one instance of actual or attempted

12a
sexually violent conduct or child molestation.
Likewise, . . . White will have the opportunity
to challenge the government’s evidence and
witnesses concerning the first element,
present his own evidence and witnesses, and
present arguments to the court seeking to
persuade the court that the government has
failed to prove that White has engaged in at
least one instance of actual or attempted
sexually violent conduct or child molestation.
(Footnote omitted). The court thus reasoned that an
incompetent person contesting the prior-conduct
element “effectively loses [his] statutory rights
because he lacks the ability to rationally understand
the proceeding against him or communicate with his
counsel about the factual allegations at the heart of
the first element’s factual inquiry,” concluding
therefore that such a § 4248 proceeding “would not
comport with procedural due process” and citing
Mathews u. Eldridge, 424 U.S. 319 (1976). Mathews
requires the application of a test weighing (1)
White’s liberty interest; (2) the risk of an erroneous
deprivation of that interest under current
procedures; and (3) the government’s interest and
burden of providing any additional procedure that
would be required. See id. at 335.
White, of course, agrees with the district court,
contending that committing him as an incompetent
person who contests the prior conduct element
violates his right to procedural due process. Applying
the Mathews test, he describes his liberty interest as
profound. He describes the risk of erroneous
deprivation as “enormous” because, “in support of a
meaningful adversarial process, the statute provides

13a
that a respondent is entitled to counsel, and that he
will have the ‘opportunity to testify, to present
evidence, to subpoena witnesses on his behalf, and to
confront and cross-examine witnesses who appear at
the hearing.’ But Mr. White cannot do any of those
things.” (Quoting 18 U.S.C. § 4247(d)). And
addressing the government’s interests, he argues
that they are “not significant in this case” because
the government “may not serve those interests by
assuming that a person in Mr. White’s position is
sexually dangerous.”
Thus, we are presented with the novel question of
whether § 4248 violates the Due Process Clause
insofar as it requires White, a mentally incompetent
person, to defend against allegations of past bad
sexual acts while he does not understand the
proceedings and cannot assist in his defense.
It is, of course, well established that the
Constitution does not permit a mentally incompetent
person to be subject to a criminal trial, see Indiana v.
Edwards, 554 U.S. 164, 170 (2008), or a mentally
incompetent person to be indefinitely civilly
committed solely on account of his incompetency,
Jackson v. Indiana, 406 U.S. 715, 720, 738 (1972).
But the Constitution does permit the indefinite civil
commitment of a mentally incompetent person who
is also dangerous. See Greenwood v. United States,
350 U.S. 366, 373-75 (1956). Nonetheless, particular
aspects of civil commitment statutes have been
subject to constitutional challenges over the years.
In Addington v. Texas, 441 U.S. 418 (1979), the
Supreme Court held that the clear-and-convincing
standard of proof, rather than the preponderance-of-

14a
the-evidence standard, must be applied in a civil
commitment proceeding. Id. at 427-33. Also, in
Comstock, the Court held that Congress’s enactment
of § 4248 was authorized by the Constitution’s
Necessary and Proper Clause. See 560 U.S. 126. And
on remand of Comstock, we held that § 4248’s
requirement that past bad sexual acts need only be
proved by clear and convincing evidence rather than
beyond a reasonable doubt, does not violate the Due
Process Clause. See Comstock, 627 F.3d 513. But no
court, as far as we are able to ascertain, has held
that it is unconstitutional to subject an incompetent
person to indefinite civil commitment under § 4248
when the person challenges all three elements for
such commitment, especially the prior-conduct
element.
The parties agree that the relevant analysis should
be governed by Mathews. See Addington, 441 U.S.
at 425 (applying the Mathews framework to the due
process analysis of a civil commitment statute).
Mathews holds that a due process challenge is
governed by a three-factor balancing test, weighing
(1) the private interest affected by the official action;
(2) the risk of an erroneous deprivation with the
procedures presently used; and (3) the government’s
interest, including the function involved and the
fiscal and administrative burdens associated with
additional procedures. Id. at 335.
When we consider the first of Mathews’ three
factors, there is no dispute that White’s liberty
interest is extraordinarily weighty. A civil
commitment “for any purpose constitutes a
significant deprivation of liberty.” Addington, 441

U.S. at 425. We
foundational.

15a
accept that proposition as

In a similar vein, when we consider the third
Mathews factor, we agree with the district court that
the government has an “important and substantial
interest in delivering mental health care to sexually
dangerous persons who are in federal custody and
[in] protecting the public from such individuals.” See
Addington, 441 U.S. at 426 (recognizing that the
State has a parens patriae interest in an individual’s
mental health and “authority under its police power
to protect the community from the dangerous
tendencies of some who are mentally ill”). Again, we
accept this as a weighty factor.
But the dispute between the government and
White in this case focuses on the second Mathews
factor —- whether, when a person is mentally
incompetent, the process afforded in § 4248 allows
too great a risk of an “erroneous deprivation of [the
private] interest through the procedures used.” 424
U.S. at 335.
To be sure, White as a mentally incompetent
person, cannot be subject to criminal liability. But
the procedures provided in this case are, we
conclude, constitutionally sufficient to commit him in
a civil proceeding. In a § 4248 proceeding, the
government must, as White has repeatedly noted,
prove that he previously engaged in sexually violent
conduct or child molestation. And because that proof
implicates historical facts,
White’s
mental
incompetency does indeed present him with a
challenge in responding to the government’s case
because he is unable to assist in his defense.

16a
Nonetheless, we conclude that the risk of an
erroneous deprivation of White’s liberty interest is
substantially and adequately mitigated by the broad
array of procedures required for a § 4248
commitment, particularly as they apply to
incompetent persons.
First, the statute requires that White have counsel,
and in this case, he was not only appointed counsel,
he was also provided a guardian ad litem to look
after his interests and assist his counsel. See 18
U.S.C. § 4247(d).
Second, the court must conduct a hearing, and
White’s counsel must be able to subpoena witnesses,
present
evidence,
and
cross-examine
the
government’s witnesses at that hearing. See id.
§ 4248(a), (c); id. § 4247(d).
Third, the government must prove the necessary
elements, including White’s prior conduct, by clear
and convincing evidence, a burden of proof greater
than the preponderance-of-the-evidence standard
that is routine in civil proceedings. See id. § 4248(d).
And fourth, the risk that an erroneous factual
finding of prior sexual violence or child molestation
will result in civil commitment is substantially
mitigated by the personal observations and opinions
of professionals that are required to prove that White
is “sexually dangerous to others” in that he “suffers
from a serious mental illness, abnormality, or
disorder as a result of which he would have serious
difficulty in refraining from sexually violent conduct
or child molestation if released” — showings that the
government is required to make. Id. § 4247(a)(5), (6).

17a
In addition, any order of commitment under § 4248
is subject to correction by multiple mechanisms
afforded by the statute. The government must file an
annual report concerning White’s mental condition
with recommendations as to the need for continued
commitment. See 18 U.S.C. § 4247(e)(1)(B).
Moreover, White’s counsel can seek a video recording
of the interview of White upon which the annual
report is based to assist in the district court’s review
of White’s commitment following such reports. See
id. § 4247(f). Also, White’s counsel can, “at any time”
after the first 180 days, file a motion to have a court
determine whether he should be released. See id.
§ 4247(h). And as important, when the director of the
facility to which White has been committed
determines that he is no longer sexually dangerous,
with conditions or not, the director must promptly
certify that fact to the court. See id. § 4248(e).
Finally, White retains the right to challenge the
legality of his detention at any time by filing a
petition for a writ of habeas corpus, which is
explicitly preserved. See id. § 4247(g).
Under these procedures, it is difficult to conceive of
circumstances where a person such as White would
be wrongfully committed, although we recognize
there is always some degree of risk inherent in any
type of adversary proceeding, including a § 4248
proceeding. As we explained on remand in Comstock,
the Supreme Court approved the constitutionality of
the commitment scheme before it in Addington
because “layers of professional review and the
concern of family and friends provided continuous
opportunities for an erroneous commitment to be
corrected.” 627 F.3d at 521 (cleaned up). And we

18a
concluded that § 4248 “offers the same sort of
professional review and opportunity for correction of
an erroneous commitment” by mandating discharge
“as soon as a person ceases to pose a danger to
others.” Id.
At bottom, while White’s liberty interest is surely
one of the most important to protect under the
Constitution, the government’s police power is also
important when exercised to protect the public from
persons found to be unable to control their sexual
dangerousness. The balance struck by § 4248 in
serving these
interests
is,
we
conclude,
constitutionally sufficient under the Due Process
Clause and Mathews.
Accordingly, we reverse the judgment of the district
court and remand with instructions that the court
promptly conduct a § 4248 hearing to determine
whether White is sexually dangerous and therefore
must be committed to the custody of the Attorney
General.
REVERSED AND REMANDED
WITH INSTRUCTIONS

19a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT
OF NORTH CAROLINA
WESTERN DIVISION
5:17-HC-2162-D
United States of America,
Petitioner,
v.
Oliver Lee White,
Respondent.
Filed: 05/14/2018
MEMORANDUM AND RECOMMENDATION
(Under Seal)
[REDACTED]

20a
[REDACTED]

21a
[REDACTED]

22a
[REDACTED]

23a
[REDACTED]

24a
[REDACTED]

25a
[REDACTED]

26a
[REDACTED]

27a
APPENDIX C
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT
OF NORTH CAROLINA
WESTERN DIVISION
No. 5:17-HC-2162-D
United States of America,
Petitioner,
v.
Oliver Lee White,
Respondent.
Filed: 09/11/2018
ORDER
Oliver Lee White (“White” or “respondent”) is a 30year old Native American man with intellectual
disability. Three times in the last nine years, federal
grand juries in the United States District Court for
the District of Montana have indicted White and
charged him with sexually assaulting numerous
female children. In the first case, White and the
United States entered a pretrial deferment
agreement. In the latter two cases, doctors examined
White and determined that he was not competent to
stand trial due to his intellectual disability and that
White could not be hospitalized pursuant to 18

28a
U.S.C. § 4246. In each case, the District of Montana
dismissed the criminal charges without prejudice.
On August 30, 2017, the United States certified
White as a sexually dangerous person under 18
U.S.C. § 4248. See [D.E. 1]; see also [D.E. 2], On
December 20, 2017, White moved to dismiss the
proceeding under 18 U.S.C. § 4248 and,
alternatively, for a competency hearing to determine
whether White is competent to proceed in his civil
commitment hearing under 18 U.S.C. § 4248. See
[D.E. 37],
On May 14, 2018, Magistrate Judge Gates issued a
Memorandum and Recommendation (“M&R”) and
recommended that the court deny White’s motion to
dismiss and alternative motion for a competency
hearing [D.E. 58]. On May 29, 2018, White objected
to the M&R [D.E. 65]. On June 12, 2018, the
government responded to White’s objections
[D.E. 69]. On June 18, 2018, White filed a motion to
hold discovery in abeyance pending the court’s ruling
on the M&R [D.E. 70]. On June 25, 2018, the
government responded in opposition [D.E. 73]. On
June 25, 2018, White replied [D.E. 74].
The court has reviewed the M&R, the record, and
White’s objections de novo. See Diamond v. Colonial
Life & Accident Ins. Co.. 416 F.3d 310, 315 (4th
Cir. 2005); 28 U.S.C. § 636(b). As explained below,
the court declines to adopt the M&R and grants
White’s motion for a competency hearing. Before that
hearing takes place, the court orders an examination
of White under 18 U.S.C. § 4247(b) in order to
determine whether White is presently suffering from
a mental disease or defect rendering him mentally

29a
incompetent to the extent that he is unable to
understand the nature and consequences of the
proceedings under 18 U.S.C. § 4248 against him or to
assist properly in his defense. Following the
examination, a report shall be filed with the court
and copies served on counsel for White and the
United States Attorney and White’s guardian ad
litem. See 18 U.S.C. § 4247(c). The trial date of
November 29, 2018, is postponed. Instead, on
November 29, 2018, the court will hold a competency
hearing. Pending the competency hearing, the court
denies without prejudice White’s motion to dismiss.
The court denies in part White’s motion to hold
discovery in abeyance, but relieves White from being
deposed or responding to written discovery.
I.
On May 26, 2009, a federal grand jury sitting in the
District of Montana indicted White and charged him
with four counts of aggravated sexual abuse of a
minor. See [D.E. 37-5], On December 22, 2009, the
United States moved to dismiss the indictment
without prejudice after entering into a pretrial
deferment agreement with White in which the
United States deferred prosecution for two years. See
[D.E. 37-6]. Pursuant to the deferred prosecution
agreement, White was to reside with his mother,
Peggy White, and have no contact with minors. See
id- On December 22, 2009, the District of Montana
dismissed the indictment without prejudice. See
[D.E. 37-7]. The court released White to his family.
On April 18, 2012, another federal grand jury in
the District of Montana charged White with four
counts of abusive sexual contact with minors and two

30a
counts of attempted abusive sexual contact with
minors. See [D.E. 37-2]. White’s mother, Peggy
White, and her partner, Susan Kelly, were named as
co-defendants and charged with misprision of felony.
Id- White’s criminal defense attorney requested a
competency examination for White. See [D.E. 37-4].
On May 30, 2013, doctors at FMC-Butner
concluded that White lacked a rational and factual
understanding of the criminal charges and
proceedings against him and could not assist in his
defense. See [D.E. 37-8] 4-6. The Honorable Donald
Molloy requested an evaluation of White under 18
U.S.C. § 4246. See id. at 4. On September 11, 2013,
doctors at FMC-Butner concluded that White’s
mental condition would not create a substantial risk
of bodily injury to another person or serious damage
to the property of another. See id. at 4—6. Thus,
White should not be committed under 18 U.S.C.
§ 4246. On October 7, 2013, Judge Molloy ordered
that the six criminal charges against White be
dismissed without prejudice unless the United States
objected. See [D.E. 37-10]. On October 10, 2013, the
United States moved to dismiss the criminal charges
against White without prejudice. See [D.E. 37-9].
Judge Molloy released White to his family. See
[D.E. 37-10],
On July 22, 2016, another federal grand jury in the
District of Montana charged White with aggravated
sexual abuse of a child and attempted sexual abusive
contact with a child. See [D.E. 37-11]. On
September 28, 2016, the Honorable Susan B.
Watters ordered White to be evaluated in order to
determine whether White was competent to stand
trial. See [D.E. 37-12].

31a
On November 28, 2016, the medial evaluator
concluded that White was not competent to stand
trial. See [D.E. 37-13]. On January 11, 2017, Judge
Watters conducted a competency hearing and
ordered that White be evaluated and that attempts
be made to assist White in attaining competency. See
[D.E. 37-14]. If competency could not be restored,
Judge Watters ordered the facility’s director to file a
certificate pursuant to 18 U.S.C. § 4246(a), stating
whether White is presently suffering from a mental
disease or defect as a result of which his release
would create a substantial risk of bodily injury to
another person or serious damage to property of
another. Id. at 2.
On July 26, 2017, the BOP evaluators opined that
White did not meet criteria for civil commitment
under 18 U.S.C. § 4246. See [D.E. 94] 18. However,
during 2017, BOP evaluators also evaluated White
under 18 U.S.C. § 4248 and prepared a report dated
August 18, 2017. See [D.E. 10-1].
On August 30, 2017, pursuant to 18 U.S.C. § 4248,
the United States filed in this court a Certificate of
Sexually Dangerous Person concerning White
[D.E. 1]. In its certification, the United States cites
“conduct underlying the current pending offenses” in
the District of Montana to allege that White
“previously engaged or attempted to engage in
sexually violent conduct or child molestation.”
[D.E. 1-1] 2. The United States also cites “evidence
that between 2007 through 2014, he engaged in
several acts of abusive sexual contact/sexual
assault/child molestation against several minors
under the age of 12 years.” Id. The certification

32a
identifies no convictions for sexually violent conduct
or child molestation. See id.
After the certification of August 30, 2017, Fabian
Saleh, M.D. [D.E. 11], Joseph J. Plaud, Ph.D.
[D.E. 12], Amy Phenix, Ph.D. [D.E. 21-1], and Luis
Rosell, Psy. D. [D.E. 25] evaluated White. These
evaluations noted White’s intellectual disability. See
Report of Fabian M. Saleh, M.D. (Oct. 12, 2017)
[D.E. 11-1] 17 (“[I]t is my opinion . . . that Mr. White
is a low-functioning individual who presents with a
neurodevelopmental disorder best described as
Intellectual Disability.”); Report of Joseph J. Plaud,
Ph.D. (Oct. 15, 2017) [D.E. 12] 16 (“Mr. White was
properly oriented as to person and place, but had
difficulties articulating basic current information,
such as the current or past presidents of the United
States, or the reason he was presently at FMCButner.”); Report of Amy Phenix, Ph.D. (Nov. 12,
2017) [D.E. 21-1] 21-22 (“His intellectual functioning
is very low. Mr. White has poor social skills, and he
relies on others to help him function in a socially
appropriate way. His peers help him write letters
and communicate with others. Mr. White has
difficulty with communication with others, and he
has difficulty with social judgment. He has
impairment in managing his finances, and he has
never lived independently.”); Report of Luis Rosell,
Psy. D. (Nov. 20, 2017) [D.E. 25] 9 (“He
demonstrated deficits in remote and recent memory.
Consistent with previous testing, he demonstrated
an inability to complete basic tasks related to
reading or subtracting. This deficit is due to his
global intellectual deficits, which affects his ability
on a variety of domains . . . .”). Two evaluators

33a
questioned White’s ability to understand and
meaningfully participate in the proceedings under 18
U.S.C. § 4248. See Report of Luis Rosell, Psy. D.
(Nov. 20, 2017) [D.E. 25] 11; Report of Joseph J.
Plaud, Ph.D. (Oct. 15, 2017) [D.E. 12] 16.
On November 28, 2017, White filed a motion to
appoint a guardian ad litem [D.E. 28]. In support,
White argued that White’s “mental condition renders
him incompetent to assist counsel in the current
matter.” Id- at 3.
On December 1, 2017, Judge Watters conducted a
hearing in the District of Montana. See [D.E. 37-15].
Judge Watters found that White is not suffering from
a mental disease or defect such that “his release
would create a substantial risk of bodily injury to
another person or serious damage to property of
another” and declined to commit White under 18
U.S.C. § 4246. See id. On that same date, Judge
Watters granted the government’s motion to dismiss
the criminal charges against White without
prejudice. See id.
On December 20, 2017, White filed a motion to
dismiss the certificate against him or, in the
alternative, to hold a competency hearing [D.E. 37].
The government opposed the motion. See [D.E. 40].
In April 2018, the government again evaluated
White pursuant to 18 U.S.C. § 4246. See [D.E. 51].
On April 30, 2018, Dr. Evan Du Bois concluded that
White did not meet criteria for commitment under 18
U.S.C. § 4246. See [D.E. 51] 13; id- at 14 (“Given the
overall presentation of Mr. White, including the
extent of his cognitive deficits, it does not appear

34a
that there is a clear causal relationship between his
intellectual disability and risk for future sexual
violence.”).
On May 14, 2018, Judge Gates granted White’s
motion for a guardian ad litem [D.E. 60] and
recommended denying his motion to dismiss or, in
the alternative, for a competency hearing [D.E. 58].
Judge Gates concluded that the certification should
not be dismissed because White’s “exact situation is
provided for in 18 U.S.C. §§ 4241(d) and 4248.” Idat 4. In support, Judge Gates cited 18 U.S.C.
§ 4241(d), which states: “If, at the end of the time
period specified, it is determined that the defendant’s
mental condition has not so improved as to permit
the proceedings to go forward, the defendant is
subject to the provisions of sections 4246 and 4248.”
18 U.S.C. § 4241(d); see M&R at 3-4.
II.
Section 4241(d) discusses how a court shall proceed
after a hearing to determine a defendant’s
competency. See 18 U.S.C. § 4241(d). If the court
determines that a defendant “is presently suffering
from a mental disease or defect rendering him
mentally incompetent to the extent that he is unable
to understand the nature and consequences of the
proceedings against him or to assist properly in his
defense, the court shall commit the defendant to the
custody of the Attorney General.” 18 U.S.C.
§ 4241(d). As discussed, on January 12, 2017, Judge
Watters found that White was not mentally
competent to proceed in his criminal case and
complied with 18 U.S.C. § 4241(d) by committing

35a
White to the custody of the Attorney General. See
[D.E. 37-14].
The Attorney General then hospitalized White for
evaluation and treatment. See 18 U.S.C. § 4241(d);
[D.E. 37-14] 2. During that hospitalization, BOP
examiners concluded that there was not a
substantial probability that in the foreseeable future
White will attain the capacity to permit the criminal
proceedings to go forward. See [D.E. 94]. The BOP
examiners also opined that White did not meet
criteria for commitment under 18 U.S.C. § 4246. See
id. at 18. On December 1, 2017, Judge Watters held a
hearing, declined to commit White under
section 4246, and dismissed the criminal charges
against White without prejudice. See [D.E. 37-15].
The government cites the language at the end of
section 4241(d) and states that this court need not
hold a competency hearing concerning White’s
competency to proceed under 18 U.S.C. § 4248. See
18 U.S.C. § 4241(d) (“If, at the end of the time period
specified, it is determined that the defendant’s
mental condition has not so improved as to permit
the proceedings to go forward, the defendant is
subject to the provisions of section 4246 and 4248.”).
The court disagrees. Being “subject to the provisions”
of section 4248 does not address whether this court
can hold a competency hearing concerning White’s
competency to proceed under 18 U.S.C. § 4248. It
also does not address whether the Fifth Amendment
Due Process Clause permits the United States to
proceed under section 4248 against a person who is
not competent to understand the section 4248
proceeding and who contests all three prongs under
section 4248. Cf. United States v. Comstock. 560 U.S.

36a
126, 129-33, 137-49 (2010); Medina v. California. 505
U.S. 437, 446-53 (1992); Jackson v. Indiana. 406 U.S.
715, 720-39 (1972): Greenwood v. United States. 350
U.S. 366, 373-76 (1956); United States v. Wood. 741
F.3d 417, 423-25 (4th Cir. 2013).
Section 4248(b) expressly permits a court to order a
competency evaluation under 18 U.S.C. § 4247(b) for
a person facing civil commitment under 18 U.S.C.
§ 4248. See 18 U.S.C. § 4248(b) (“Prior to the date of
the hearing, the Court may order that a psychiatric
or psychological examination of the defendant be
conducted, and that a psychiatric or psychological
report be filed with the court, pursuant to the
provisions
of section
(c).”).
4247(b)
and
Section 4247(b), in turn, permits this court to order
an examination under section 4241 to determine
“whether the person is suffering from a mental
disease or defect rendering him mentally
incompetent to the extent that he is unable to
understand the nature and consequences of the
proceedings against him or to assist properly in his
defense.” 18 U.S.C. § 4247(c)(4)(A). The court
construes the word “proceeding” in section 4247 to
include a section 4248 proceeding. Thus, this court
orders an examination of White under 18 U.S.C.
§ 4247(b) to determine whether White is presently
suffering from a mental disease or defect rendering
him mentally incompetent to the extent that he is
unable to understand the nature and consequences of
the proceedings under 18 U.S.C. § 4248 against him
or to assist properly in his defense in the
section 4248 proceeding. Once the court receives the
results of that examination, the court will hold a
competency hearing on November 29, 2018.

37a
III.
In sum, the court DECLINES to adopt the M&R
[D.E. 58] and GRANTS White’s motion for a
competency hearing [D.E. 37]. Before that hearing
takes place, the court orders an examination of
White under 18 U.S.C. § 4247(b) to determine
whether White is presently suffering from a mental
disease or defect rendering him mentally
incompetent to the extent that he is unable to
understand the nature and consequences of the
proceedings under 18 U.S.C. § 4248 against him or to
assist properly in his defense in the section 4248
proceeding. Following the examination, a report shall
be filed with the court and copies served on counsel
for White and the United States Attorney and
White’s guardian ad litem. See 18 U.S.C. § 4247(d).
The trial date of November 29, 2018, is postponed.
Instead, the court will hold a competency hearing on
November 29, 2018. Pending the competency
hearing, the court DENIES without prejudice
White’s motion to dismiss. If the court determines
that White is not competent to proceed under
section 4248, White can renew his motion to dismiss.
The court DENIES in part White’s motion to hold
discovery in abeyance [D.E. 70], but relieves White
from being deposed or responding to written
discovery requests.
SO ORDERED. This 11 day of September 2018.
/s/ James Dever
JAMES C. DEVER III
Chief United States District Judge

38a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT
OF NORTH CAROLINA
WESTERN DIVISION
No. 5:17-HC-2162-D
United States of America,
Petitioner,
v.
Oliver Lee White,
Respondent.
Filed: 11/26/2018
ORDER
On September 25, 2018, the United States moved
for reconsideration of this court’s order of
September 11, 2018. See [D.E. 98]. In that order, this
court granted Oliver Lee White’s (“White” or
“respondent”) motion for a competency hearing,
scheduled that hearing for November 29, 2018, and
ordered “an examination of White under 18 U.S.C.
§ 4247(b) in order to determine whether White is
presently suffering from a mental disease or defect
rendering him mentally incompetent to the extent
that he is unable to understand the nature and
consequences of the proceedings under 18 U.S.C.

39a
§ 4248 against him or to assist properly in his
defense.” [D.E. 95] 2. On October 15, 2018, White
responded in opposition [D.E. 100]. On October 29,
2018, the United States replied [D.E. 101].
This court has the discretion to reconsider its order.
See Am. Canoe Ass’n v. Murphv Farms. Inc.. 326
F.3d 505, 514-15 (4th Cir. 2003). As explained below,
the court denies the government’s motion for
reconsideration.
I.
In this court’s order of September 11, 2018, the
court described the procedural history of White’s
criminal cases that repeatedly were dismissed
without prejudice due to his incompetence, his
evaluations under 18 U.S.C. § 4246 where doctors
repeatedly concluded that he was not presently
suffering from a mental disease or defect as a result
of which his release would create a substantial risk
of bodily injury to another person or serious damage
to property of another, and his section 4248. case.
See [D.E. 95] 2-7. The court then explained the
textual rationale for concluding that this court could
order a competency examination of White. See id.
at 8. The court noted that 18 U.S.C. § 4248(b)
expressly permits a court to order a competency
examination under 18 U.S.C. § 4247(b) for a person
facing civil commitment under 18 U.S.C. § 4248. See
18 U.S.C. § 4248(b) (“Prior to the date of the hearing,
the court may order that a psychiatric or
psychological examination of the defendant be
conducted, and that a psychiatric or psychological
report be filed with the court, pursuant to the
(c).”).
provisions
of section
4247(b)
and

40a
“Section 4247(b), in turn, permits this court to order
an examination under section 4241 to determine
‘whether the person is suffering from a mental
disease or defect rendering him mentally
incompetent to the extent that he is unable to
understand the nature and consequences of the
proceedings against him or to assist properly in his
defense.’ [D.E. 95] 8 (quoting 18 U.S.C.
§ 4247(c)(4)(A)) (emphasis added). The court
m
word
“proceedings”
the
construed
section 4247(c)(4)(A) “to include a section 4248
proceeding.” IcL Thus, the court ordered “an
examination of White under 18 U.S.C. § 4247(b) to
determine whether White is presently suffering from
a mental disease or defect rendering him mentally
incompetent to the extent that he is unable to
understand the nature and consequences of the
proceedings under 18 U.S.C. § 4248 against him or to
assist properly in his defense in the section 4248
proceeding.” Id.
In opposition to these conclusions, the government
argues that 18 U.S.C. §§ 4247-48 never permit a
court to order a competency examination or to hold a
competency hearing in a section 4248 proceeding.
See [D.E. 99] 5-6. The court rejects the argument
that it can never order a competency examination in
a section 4248 proceeding. Section 4248 states that
“[p]rior to the date of the [section 4248 hearing to
determine whether the person is a sexually
dangerous person], the court may order that a
psychiatric or psychological examination of the
defendant be conducted, and that a psychiatric or
psychological report be filed with the court, pursuant
to the provisions of section 4247(b) and (c).” 18

41a
U.S.C. § 4248(b). In turn, section 4247(c) permits the
court to receive a psychiatric or psychological report.
See 18 U.S.C. § 4247(c).1 Section 4247(c) provides a
118 U.S.C. § 4247(c) provides:
Psychiatric or psychological reports.-A psychiatric or
psychological report ordered pursuant to this chapter
shall be prepared by the examiner designated to
conduct the psychiatric or psychological examination,
shall be filed with the court with copies provided to
the counsel for the person examined and to the
attorney for the Government, and shall include(1) the person’s history and present symptoms;
(2) a description of the psychiatric, psychological, and
medical tests that were employed and their results;
(3) the examiner’s findings; and
(4) the examiner’s opinions as to diagnosis, prognosis,
and(A) if the examination is ordered under
section 4241, whether the person is suffering from a
mental disease or defect rendering him mentally
incompetent to the extent that he is unable to
understand the nature and consequences of the
proceedings against him or to assist properly in his
defense;
(B) if the examination is ordered under
section 4242, whether the person was insane at the
time of the offense charged;
(C) if the examination is ordered under section 4243
or 4246, whether the person is suffering from a
mental disease or defect as a result of which his
release would create a substantial risk of bodily
injury to another person or serious damage to
property of another;
(D) if the examination is ordered under section
4248, whether the person is a sexually dangerous
person;
(E) if the examination is ordered under section 4244
or 4245, whether the person is suffering from a
mental disease or defect as a result of which he is in

42a
list of what the psychiatric or psychological report
“shall include,” but the word “include” reflects that
“the list that follows is meant to be illustrative
rather than exhaustive.” Samantar v Yousuf. 560
U.S. 305, 317 (2010); see Burgess v. United States.
553 U.S. 124, 131 n.3 (2008). Thus, section 4247(c)
permits a court in a section 4248 proceeding to order
that a psychiatric or psychological report concerning
a person in a section 4248 proceeding assess not only
a person’s sexual dangerousness, but also that
person’s competence to understand the nature and
consequences of the section 4248 proceeding against
him or to assist properly in his defense. Moreover, it
is the government, not this court, that is seeking to
ignore the plain text of 18 U.S.C. §§ 4247-48. Cf.
Pereira v. Sessions. 138 S. Ct. 2105, 2118 (2018)
(“Unable to find sure footing in the statutory text,
the Government . . . pivot [s] away from the plain
language and raise [s] a number of practical concerns.
These practical considerations are meritless and do
not justify departing from the statute’s clear text.”);
Burrage v. United States. 571 U.S. 204, 218 (2014)
(same). Furthermore, given the court’s authority
under 18 U.S.C. §§ 4247-48 to order a psychiatric or
psychological examination and to obtain a
psychiatric or psychological report concerning
competency, the court rejects the government’s
need of custody for care or treatment in a suitable
facility; or
(F) if the examination is ordered as a part of a
presentence investigation, any recommendation the
examiner may have as to how the mental condition
of the defendant should affect the sentence.
18 U.S.C. § 4247(c) (emphasis added).

43a
argument that the court cannot hold a competency
hearing in a section 4248 proceeding. See Zadvydas
v. Davis. 533 U.S. 678, 689, 696-97 (2001)
(concluding that, to avoid constitutional doubt, a
federal immigration statute contained an implicit
reasonable time limitation for the detention of aliens
ordered removed); United States v. Timms. 664 F.3d
436, 452 (4th Cir. 2012) (concluding that, to avoid
constitutional doubt, the Adams Walsh Act implicitly
permits a court to hold a probable cause hearing in a
section 4248 case).
The government also argues that “section 4241
applies only in the criminal context” and that this
court can never inquire into a person’s “competence”
to understand the nature and consequences of a
section 4248 proceeding or to assist properly in his
defense in a section 4248 proceeding. See [D.E. 99] 79. Assuming without deciding that 18 U.S.C. § 4241
applies only in the criminal context, the
government’s argument concerning section 4241 and
competence ignores that being “subject to the
provisions of section!] 4248”2 does not prohibit a
court from inquiring into whether a person is
competent to understand the nature and
consequences of the section 4248 proceeding against
him or to assist properly in his defense when the
person contests all three elements under the Adam

2 18 U.S.C. § 4241(d) (“If, at the end of the time period
specified, it is determined that the defendant’s mental condition
has not so improved as to permit the proceedings to go forward,
the defendant is subject to the provisions of section 4246
and 4248.”).

44a
Walsh Act. See 18 U.S.C. § 4247(b), (c).3 Had
Congress intended to preclude a court from ever
examining such a person’s competence to understand
the nature and consequences of the section 4248
proceeding against him and to properly assist in his
defense, Congress could have said so. It did not.
That Congress did not prohibit a court from ever
inquiring into a person’s competence to understand
the nature and consequences of the section 4248
proceeding against him and to assist properly in his
defense makes sense. The Supreme Court repeatedly
has held that the “criminal trial of an incompetent
defendant violates due process.” Cooper v.
Oklahoma. 517 U.S. 348, 354 (1996) (quotation
omitted); see Medina v California. 505 U.S. 437, 44653 (1992). Mental competence in a criminal case
requires a person to have (1) a rational and factual
understanding of the proceeding against him and (2)
a sufficient present ability to consult with his lawyer
with a reasonable degree of rational understanding.
See Indiana v. Edwards. 554 U.S. 164, 170 (2008);
3 In United States v. Broncheau. 645 F.3d 676, 683-87 (4th
Cir. 2011), the Fourth Circuit held that the United States did
not have to proceed first under 18 U.S.C. § 4241, rather than 18
U.S.C. § 4248, when seeking to commit a person as sexually
dangerous where that person had not completed his sentence.
In Broncheau. there were “no allegations or showings that any
of the Respondents are unable to understand the nature and
consequences of the proceedings against them or to assist
properly in their defense.” Id. at 686 (quotation and alterations
omitted). Thus, Broncheau does not address the authority of
this court to receive a psychiatric or psychological report under
18 U.S.C. §§ 4247-48 addressing White’s competence in this
section 4248 proceeding or to hold a competency hearing
concerning White.

45a
Drope v. Missouri. 420 U.S. 162, 171 (1975); Dusky v.
United States. 362 U.S. 402, 402-03 (1960) (per
curiam).
Of course, a section 4248 proceeding is a civil
proceeding, not a criminal proceeding. See United
States v. Comstock. 560 U.S. 126, 129-33, 142-46
(2010). Nonetheless, a civil proceeding under
section 4248 is not an “ordinary civil matter.” United
States v. Searcv. 880 F.3d 116, 125 (4th Cir. 2018)
(quotation omitted). Rather, the statutory procedures
for a civil commitment hearing under section 4248
“differ substantially from those that apply to a runof-the mill civil case in that they afford individuals
rights traditionally associated with criminal
proceedings, including the right to appointed
counsel, the right to confront witnesses, and a
heightened burden of proof.” IcL Congress added
these procedural safeguards because “a negative
outcome in such a proceeding results in a ‘massive
curtailment of liberty’ and requires due process
protection. United States v. Wood. 741 F.3d 417, 423
(4th Cir. 2013) (quoting Vitek v. Jones. 445 U.S. 480,
491 (1980)). Moreover, if this court construed 18
U.S.C. §§ 4247-48 to prohibit a court from inquiring
into a person’s competence to understand the
section 4248 proceeding and to assist properly in his
defense when that person contests all three elements
under the Adam Walsh Act, the statute would raise
grave constitutional concerns. Cf Comstock. 560
U.S. at 129-33, 137-49; Jackson v Indiana. 406 U.S.
715, 720-39 (1972); Greenwood v. United States. 350
U.S. 366, 373-76 (1956); Wood. 741 F.3d at 423-25.
After all, “[c]ompetence to stand trial is rudimentary,
for upon it depends the main part of those rights

46a
deemed essential to a fair trial, including the right to
effective assistance of counsel, the rights to summon,
to confront, and to cross-examine witnesses, and the
right to testify on one’s own behalf. . . Cooper. 517
U.S. at 354 (quotation omitted). The plain text of 18
U.S.C. §§ 4247-48 avoids these grave constitutional
concerns. Cf, Clark v. Martinez. 543 U.S. 371, 381-82
(2005) (constitutional-avoidance canon provides a
tool for choosing between competing plausible
interpretations of a statute and choosing the
the
avoids
interpretation
that
statutory
constitutional problem); INS v. St. Cvr. 533 U.S. 289,
299-300 (2001) (same); Edward J. DeBartolo Corp. v.
Fla. Gulf Coast Bldg. & Constr. Trades Council. 485
U.S. 568, 575 (1988) (collecting cases); Crowell v.
Benson. 285 U.S. 22, 62 (1932); United States ex rel.
Attorney Gen, v. Del. & Hudson Co.. 213 U.S. 366,
407 (1909); see also Ashwander v. Tenn. Valiev
Auth.. 297 U.S. 288, 345-48 (1936) (Brandeis, J.,
concurring).
The nature of the section 4248 proceeding bolsters
the conclusion that a court can inquire into a
person’s competence where that person contests all
three elements under the Adam Walsh Act. In a
section 4248 proceeding, the court must hold “a
hearing to determine whether the person is a
sexually dangerous person.” 18 U.S.C. § 4248(a). The
Adam Walsh Act defines a “sexually dangerous
person” as “a person who has engaged or attempted
to engage in sexually violent conduct or child
molestation and who is sexually dangerous to
others.” Id, § 4247(a)(5). “[SJexually dangerous to
others” means “that the person suffers from a serious
mental illness, abnormality, or disorder as a result of

47a
which he would have serious difficulty in refraining
from sexually violent conduct or child molestation if
released.” hh § 4247(a)(6). In a section 4248
proceeding, the United States must prove three
elements by clear and convincing evidence before the
court can commit the person to the custody of the
Attorney General. IcL § 4248(d); see Comstock. 560
U.S. at 130-32; United States v. Bell. 884 F.3d 500,
502-03, 508-10 (4th Cir. 2018); United States v.
Perez. 752 F.3d 398, 407 (4th Cir. 2014); United
States v. Antone. 742 F.3d 151, 158 (4th Cir. 2014);
United States v. Hever. 740 F.3d 284, 291-92 (4th
Cir. 2014); Wood. 741 F.3d at 419; United States v.
Bolander. 722 F.3d 199, 206 (4th Cir. 2013); United
States v. Wooden. 693 F.3d 440, 442 (4th Cir. 2012);
United States v. Francis. 686 F.3d 265, 268 (4th Cir.
2012); United States v. Hall. 664 F.3d 456, 461-63
(4th Cir. 2012). Specifically, the United States must
prove: (1) the person has engaged in or attempted to
engage in sexually violent conduct or child
molestation; (2) the person suffers from a serious
mental illness, abnormality, or disorder; and, (3) as a
result of the serious mental illness, abnormality, or
disorder, the person would have serious difficulty in
refraining from sexually violent conduct or child
molestation if released. See, e.g.. Antone. 742 F.3d at
158-59.
The central focus of the first element under the
Adam Walsh Act looks back in time and requires the
United States to prove by clear and convincing
evidence at least one instance of actual or attempted
sexually violent conduct or child molestation. In
nearly every Adam Walsh Act case, the respondent
does not contest the first element, and the United

48a
States simply presents a judgment of conviction from
a criminal case where the respondent was convicted
of actual or attempted sexually violent conduct or
child molestation.4 In this case, however, White has
never been convicted of any crime, much less actual
or attempted sexually violent conduct or child
molestation. Thus, during the trial in this
section 4248 proceeding, the United States will have
to present witnesses and evidence concerning the
first element. The United States also will present
arguments to the court seeking to persuade the court
that the United States has proven that White has
engaged in at least one instance of actual or
attempted sexually violent conduct or child
molestation. Likewise, during the trial in this
section 4248 proceeding, White will have the
opportunity to challenge the government’s evidence
and witnesses concerning the first element, present
his own evidence and witnesses, and present
4 The United States District Court for the Eastern District of
North Carolina has resolved 184 Adam Walsh Act cases. The
undersigned has presided in 56 Adam Walsh Act cases. As the
Fourth Circuit explained in Timms, when the Adams Walsh Act
was first implemented in 2006, “individuals were certified
under § 4248(a) in various district courts around the country,
depending on the location of that person’s BOP place of
incarceration.” Timms. 664 F.3d at 439. “Early in the process,
however, the BOP began transferring potential candidates for
§ 4248 civil commitment to the Federal Correction Institute in
Butner, North Carolina (“FCI-Butner”) for an initial
assessment, such that § 4248 civil commitment actions are now
being reviewed almost exclusively through that facility.” hL
at 439-40 (footnote omitted). “As a result nearly all § 4248 civil
commitment actions nationwide are now filed and adjudicated
in the Eastern District of North Carolina, and then appealed to”
the Fourth Circuit. IcL at 440.

49a
arguments to the court seeking to persuade the court
that the government has failed to prove that White
has engaged in at least one instance of actual or
attempted sexually violent conduct or child
molestation.
When a respondent contests all three elements
under the Adam Walsh Act (as White does), the
statutory scheme permits a court to inquire into
whether the respondent has (1) a rational and
factual understanding of the section 4248 proceeding
against him and (2) a sufficient present ability to
consult with his lawyer with a reasonable degree of
rational understanding. See 18 U.S.C. §§ 4247-48.
Absent such an inquiry, the respondent faces the
prospect of indefinite commitment arising from a
trial focused on both his past conduct and present
mental condition even though he lacks the capacity
to understand the section 4248 trial or to participate
rationally in his defense. Permitting such a trial and
ensuing commitment to occur would violate
procedural due process. See Mathews v. Eldridge.
424 U.S. 319, 335 (1976); see also Jackson. 406 U.S.
at 731-39.
II.
In opposition to the court’s conclusion that it can
inquire into a respondent’s competence in a
section 4248 proceeding where respondent contests
all three elements, the government argues that the
first element in an Adam Walsh Act case does not
require a prior criminal act. See [D.E. 101] 1-2;
United States v. Comstock. 627 F.3d 513, 520 (4th
Cir. 2010). The government also argues that the first
element in an Adam Walsh Act case does not require

50a
criminal scienter coupled with attempted or actual
sexually violent conduct or child molestation. See
[D.E. 101] 2; Kansas v. Hendricks. 521 U.S. 346, 362
(1997). Moreover, the government argues that
“volitional impairment—not prior misconduct—is the
gravamen of the civil commitment inquiry,” that the
Adams Walsh Act provides “the minimum safeguards
required by the Fifth Amendment,” and that those
safeguards do not require that a respondent who
contests all three elements be competent. [D.E. 101]
2-7.
The court agrees that the first element in an Adam
Walsh Act case requires proof by clear and
convincing evidence that respondent engaged in
actual or attempted sexually violent conduct or child
molestation but does not require a prior criminal act.
See Comstock. 627 F.3d at 520; accord Allen v.
Illinois, 478 U.S. 364,370-71 (1986). The court also
agrees that the first element in an Adam Walsh Act
case does not require proof of criminal scienter
coupled with actual or attempted sexually violent
conduct or child molestation. See Hendricks. 521
U.S. at 362. The court also agrees that “volitional
impairment” is the focal point of the second and third
elements in every Adam Walsh Act case, but the
court does not agree with the government’s implicit
argument that the first element is irrelevant. See
Bel. 884 F.3d at 508; Perez. 752 F.3d at 407; Anton:
742 F.3d at 158; Hever. 740 F.3d at 291-92; Wood.
741 F.3d at 419-.24; Bolander. 722 F.3d at 206-07;
Hall. 664 F.3d at 462-63. Rather, the first element is
a required element of proof. More fundamentally, the
court disagrees with the government’s argument that
the Adams Walsh Act does not require that a person

51a
who contests all three elements in a proceeding
under 18 U.S.C. § 4248 be competent. The court also
disagrees with the government that if the Adam
Walsh Act permits the trial and commitment under
18 U.S.C. § 4248 of an incompetent person who
contests all three elements, then such a proceeding
would comport with procedural due process.
A.
As for whether the Adams Walsh Act requires that
a person who contests all three elements in a
proceeding under 18 U.S.C. § 4248 be competent, this
court already has explained the textual rationale
permitting the court to receive a psychiatric or
psychological report concerning competency in a
section 4248 proceeding. See 18 U.S.C. §§ 4247-48.
The court also has explained that the ability to
receive such a report also gives the court authority to
hold a hearing and to provide relief to an
incompetent person who contests all three elements.
See Zadvvdas. 533 U.S. at 689, 696-97; Timms. 664
F.3d at 452.
B.
Alternatively, if the Adams Walsh Act permits the
trial and commitment of an incompetent person who
contests all three elements, then such a proceeding
would not comport with procedural due process. See
Mathews. 424 U.S. at 335; see also Jackson. 406 U.S.
at 731-39. Comparing the process in a commitment
proceeding under 18 U.S.C. § 4246 with a
commitment proceeding under 18 U.S.C. § 4248
illustrates why procedural due process requires that
a person who contests all three elements in a
proceeding under 18 U.S.C. § 4248 be competent.

52a
In a proceeding under 18 U.S.C. § 4246, the United
States seeks to commit a person who allegedly is
“presently suffering from a mental disease or defect
as a result of which his release would create a
substantial risk of bodily to another person or
serious damage to property of another.” 18 U.S.C.
§ 4246(d).5 At a section 4246 hearing, the person is
represented by counsel and, “if he is financially
unable to obtain adequate representation, counsel
shall be appointed for him pursuant to
section 3006A.” Id § 4247(d). “The person shall be
afforded an opportunity to testify, to present
evidence, to subpoena witnesses on his behalf, and to
confront and cross-examine witnesses who appear at
the hearing.” Id At a section 4246 hearing, the
United States must prove “by clear and convincing
evidence that the person is presently suffering from
a mental disease or defect as a result of which his
release would create a substantial risk of bodily
injury to another person or serious damage to
property of another . . .” Id § 4246(d). If the United
States meets its burden of proof, “the court shall
commit the person to the custody of the Attorney
General.” Id.
Once a person is committed under 18 U.S.C.
§ 4246, the “Attorney General shall make all
reasonable efforts to cause ... a State to assume . . .
5 The United States District Court for the Eastern District of
North Carolina has resolved 507 cases under 18 U.S.C. § 4246.
As with section 4248 cases, the Eastern District of North
Carolina resolves such a large volume of section 4246 cases
because section 4246 detainees are evaluated and treated at
FCI-Butner. FCI-Butner is located within the Eastern District
of North Carolina. See 28 U.S.C. § 113(a).

53a
responsibility” for the person. IcL If notwithstanding
such efforts, a State does not “assume such
responsibility, the Attorney General shall hospitalize
the person for treatment in a suitable facility, until
(1) such a State will assume such responsibility; or
(2) the person’s mental condition is such that his
release or his conditional release under a prescribed
regimen of medical, psychiatric, or psychological care
or treatment would not create a substantial risk of
bodily injury to another person or serious damage to
property of another; whichever is earlier.” Id.
Section 4246(e) permits the court to hold periodic
hearings to assess whether the person has recovered
from his mental disease or defect to such an extent to
permit either his conditional or unconditional
discharge. See id. § 4247(h). Moreover, a person
committed under section 4246 can request such a
hearing after being committed for 180 days. See id.
A commitment hearing under 18 U.S.C. § 4246 does
not have as an element of proof the respondent’s
prior conduct. See 18 U.S.C. § 4246(d); United States
v. Baker. 45 F.3d 837, 844-46 (4th Cir. 1995). Rather,
the entire focus of the section 4246 hearing is the
respondent’s alleged “mental disease of defect” and
whether “as a result of that mental disease or defect
the respondent’s release “would create a substantial
risk of bodily injury to another person or serious
damage to property of another.” See 18 U.S.C.
§ 4246(d). Thus, section 4246 hearings focus on
expert medical evidence concerning those two
medical issues. See Vitek. 445 U.S. at 495 (“[T]he
inquiry involved in determining whether or not to
transfer an inmate to a mental hospital for
treatment involves a question that is essentially

54a
medical.”); Baker. 45 F.3d at 844-45 (same); c£
United States v. Debenedetto. 618 F. App’x 751,75254 (4th Cir. 2015) (per curiam) (unpublished); United
States v. Soobrian. 571 F. App’x 256,256-57 (4th
Cir. 2014) (per curiam) (unpublished); United States
v. Conrov. 546 F. App’x 311,313-16 (4th Cir. 2013)
(per curiam) (unpublished); United States v. Taylor.
513 F. App’x 287,288-92 (4th Cir. 2013) (per curiam)
(unpublished).
Respondents in section 4246 proceedings often are
so mentally ill that they are not “competent’ under
Dusky and its progeny to face criminal prosecution,
but their lack of “competence” is not relevant to the
two medical issues at the heart of every section 4246
proceeding. Those two issue are: (1) does respondent
have a mental disease or defect; and (2) if so, as a
result of that mental disease or defect, would
respondent’s release “create a substantial risk of
bodily injury to anther person or serious damage to
property of another.” 18 U.S.C. § 4246(d); see Vitek,
445 U.S. at 489-90; Baker. 45 F.3d at 844-45.
In contrast to section 4246 proceedings, the first
element in an Adam Walsh Act case is a backward
looking factual inquiry into whether respondent has
ever engaged in or attempted to engage in sexually
violent conduct or child molestation. The next two
elements in an Adam Walsh Act case then focus on
two medical issues: (1) whether respondent has a
serious mental illness, abnormality, or disorder; and
(2) if so, as a result of that serious mental illness,
abnormality, or disorder, would respondent have
serious difficulty in refraining from sexually violent
conduct or child molestation if released. See 18
U.S.C. §§ 4247(a)(5)-(6), 4248(a).

55a
The goal of the factfinder as to the first element in
a section 4248 trial “is to uncover the truth by
examining rigorously the reliability of conflicting
evidence presented and then engaging in extensive
factfinding.” Baker. 45 F.3d at 844. The statutory
right to counsel, to cross-examine and confront
witnesses, to summon witnesses, to present evidence,
and to testify all enhance the reliability of the truth­
seeking goal. See id; 18 U.S.C. § 4247(d) (describing
the statutory rights of a respondent in a section 4248
proceeding). When the first element in a section 4248
trial is contested, the factfinder must “determine the
veracity of the testifying witnesses based, inter alia,
upon the witnesses’ demeanor while testifying.”
Baker, 45 F.3d at 844. Only if the United States
proves this first element under 18 U.S.C. § 4248 does
the court turn to the two medical issues at the heart
of the second and third elements. Cf id at 844-4.5
(noting that commitment under the predecessor
statute of 18 U.S.C. § 4246 focuses only on two
medical issues and that the focus of such hearings
concern expert testimony concerning those medical
issues). Thus, the difference between a section 4246
proceeding and a fully contested section 4248
proceeding illustrates why procedural due process
requires that a person who contests all three
elements in a section 4248 proceeding be competent.
C.
If, as the United States contends, the Adam Walsh
Act does not require a person who contests all three
elements to be competent, this court must test that
contention under Mathews v. Eldridge. 424 U.S. 319,
335 (1976), and its progeny. See, e.g.. Nelson v.
Colorado. 137 S. Ct. 1249, 1255 (2017); Connecticut

56a
v. Doehr. 501 U.S. 1, 4,18 (1991); Cleveland Bd. of
Educ. v. Loudermill. 470 U.S. 532, 542-48 (1985);
Santoskv v. Kramer. 455 U.S. 745, 768 (1982); Little
v. Streater. 452 U.S. 1, 13-17 (1981); Addington v.
Texas. 441 U.S. 418, 425-33 (1979); Timms. 664 F.3d
at 450-54; c£. Hamdi v. Rumsfeld. 542 U.S. 507, 53233 (2004); Foucha v. Louisiana. 504 U.S. 71, 79, 86
(1992). The Supreme Court has identified the
following three factors to consider in determining
those procedural safeguard due a person whose
interests are to be adversely affected by government
action:
First, the private interest that will be affected
by the official action; second, the risk of an
erroneous deprivation of such interest through
the procedures used, and the probable value, if
any, of additional or substitute procedural
safeguards; and finally, the Government’s
interest, including the function involved and
the fiscal and administrative burdens that the
procedural
substitute
or
additional
requirement would entail.
Mathews. 424 U.S. at 335; cfi Vitek. 445 U.S. at 49197.
1.
The first factor “is the nature of the interest
affected by the government action.” Baker. 45 F.3d
at 844. An adverse outcome for an individual in a
section 4248 hearing results in “a massive
curtailment of [that person’s] liberty.” Humphrey v.
Cadv. 405 U.S. 504,509 (1972); Wood. 741 F.3d
at 423; Timms. 664 F.3d at 450; Baker, 45 F.3d

57a
at 843-44. The person is committed “to the custody of
the Attorney General.” 18 U.S.C. § 4248(d). “The
Attorney General shall make all reasonable efforts to
cause ... a State to assume . . . responsibility” for
that person. Id. If notwithstanding such efforts, no
State “will assume such responsibility, the Attorney
General shall place the person for treatment in such
a suitable facility, until (1) such State will assume
such responsibility; or (2) the person’s condition is
such that he is no longer sexually dangerous to
others, or will not be sexually dangerous to others if
released under a prescribed regimen of medical,
psychiatric, or psychological care or treatment;
whichever is earlier.” IcL
The United States makes sex offender treatment
available to those persons who are committed under
the Adam Walsh Act. The treatment takes place at
FCI-Butner and has four phases, and each phase
builds on the earlier phase. Phase one is an
orientation
and
assessment
phase
where
psychologists gather information from and about the
person and formulate an assessment. Phase two
involves individual and group therapy and focuses on
helping the person to acquire cognitive skills
associated with conflict resolution, moral reasoning,
and self control and seeks to decriminalize the
person. Phase three is the core of the sex offender
treatment. Phase three involves both individual and
group therapy and focuses on increasing the
cognitive and self-regulatory skills learned in phase
two. For example, in phase three, the person will
dismantle his sex offending behaviors, one event at a
time. Phase three also requires the person to identify
high-risk situations and triggers. Phase three is

58a
critical to constructing a relapse prevention plan.
Phase four involves relapse prevention planning and
release planning and builds on phase three. Phase
four also focuses on integrating and internalizing the
person’s knowledge, emotional understanding, and
emotional insight. Phase four also focuses on
housing, employment, financial management, and
relationships. As with phases two and three, phase
four involves individual and group therapy. Some
men 6 have completed the treatment program
successfully and have been released, but the
treatment program takes years to complete.
Whether or not a person engages in sex offender
treatment at FCI-Butner, a person committed under
18 U.S.C. § 4248 can request a discharge hearing 180
days after being committed. See 18 U.S.C. § 4247(d);
United States v. Maclaren. 866 F.3d 212, 216-19 (4th
Cir. 2017). To obtain a discharge hearing, the person
must plausibly allege “ factual matter, accepted as
true, to state a claim for discharge that is plausible
on its face.” Maclaren. 866 F.3d at 218; see 18 U.S.C.
§ 4248(e). Essentially, the person must plausibly
allege that he is no longer a sexually dangerous
person. See Maclaren. 866 F.3d at 218. If the person
obtains a hearing, the person must show by a
preponderance of the evidence that he is no longer a
sexually dangerous person or will not be sexually
dangerous to others if released under a prescribed
regimen of medical, psychiatric, or psychological care
or treatment. See 18 U.S.C. § 4248(e); see. United

6 To date, no women have been committed under the Adam
Walsh Act.

59a
States v. Wooden. 887 F.3d 591, 599-602 (4th Cir.
2018).
The government argues that the Adam Walsh Act’s
“post-commitment procedures afford additional
protection” to a person and thereby obviate the need
for a person who contests all three elements to be
competent at his section 4248 trial. [D.E. 101] 4.
However, an incompetent person who contested all
three elements and got committed could not
participate meaningfully in sex offender treatment,
much less learn from it. Moreover, if the person were
incompetent due to an intellectual disability, the
person essentially would face lifetime commitment
unless and until he (became competent. C£. Jackson.
406 U.S. at 731-39. To such a person, the post­
commitment procedures would not afford additional
protection.
The private interest that is affected by commitment
under 18 U.S.C. § 4248 is great. See Timms. 664 F.3d
at 451; Baker. 45 F.3d at 844. Thus, the
government’s interest in committing an incompetent
person who contests all three elements under the
Adam Walsh Act “must be great, and the risk of an
erroneous deprivation of liberty small for the
government to prevail.” Baker. 45 F.3d at 844.
2.

The court next considers “the risk of an erroneous
deprivation of such interest through the procedures
used, and the probable value, if any, of additional or
substitute procedural safeguards.” Mathews. 424
U.S. at 335. As mentioned, the first element of the
Adam Walsh Act requires the factfinder to uncover
the truth concerning whether respondent has

60a
attempted to engage in or engaged in sexually
violent conduct or child molestation. Where a
respondent lacks a criminal conviction for actual or
attempted sexually violent conduct or child
molestation, the factfinder must examine rigorously
the reliability of conflicting evidence presented and
engage in extensive factfinding. The Adam Walsh
Act provides respondent a statutory right to counsel,
to testify, to present evidence, to subpoena witnesses,
and to confront and cross-examine witnesses who
appear at the hearing. See 18 U.S.C. § 4247(d). A
respondent’s competence, however, is “rudimentary,
for upon it depends” these statutory rights. See
Cooper. 517 U.S. at 354 (quotation omitted). Simply
put, an incompetent respondent who contests the
first element in an Adam Walsh Act case effectively
loses these statutory rights because he lacks the
ability to rationally understand the proceeding
against him or communicate with his counsel about
the factual allegations at the heart of the first
element’s factual inquiry. Likewise, an incompetent
respondent who contests the first element in an
Adam Walsh Act case effectively loses the ability to
testify, to advise counsel which witnesses to
subpoena in his defense, and to advise counsel about
potentially fruitful lines of cross-examination.
Moreover, appointing a guardian ad litem does not
cure these problems. Cf. [D.E. 101] 6 (suggesting
that appointing a guardian ad litem for an
incompetent respondent who contests all three
elements in an Adam Walsh Act case provides a
sufficient procedural safeguard to satisfy procedural
due process). After all, a guardian ad litem is not
effectively able to assist counsel in contesting the
first element.

61a
If the Adam Walsh Act permits the trial and
commitment of an incompetent person who contests
all three elements, then the risk of erroneous
deprivation of that persons’s liberty is extraordinary.
Moreover, requiring a person who contests all three
elements in a section 4248 proceeding to be
competent would add substantial value to the
procedural safeguards in the Adam Walsh Act. See
18 U.S.C. § 4247(d) (providing right to counsel, to
testify, to present evidence, to subpoena witnesses,
and to confront and cross-examine witnesses); 18
U.S.C. § 4248(d) (requiring the government to prove
the three elements by clear and convincing evidence).
3.

Next, the court considers the government’s
“interest, including the function involved and the
fiscal and administrative burdens that the additional
or substitute procedural requirement would entail.”
Mathews. 424 U.S. at 335. Obviously, the
government has an important and substantial
interest in delivering mental health care to “sexually
dangerous persons who are already in federal
custody” and to protecting the public from such
individuals. Comstock. 560 U.S. at 142. Moreover,
section 4248 is “reasonably adapted to Congress’s
power to act as a responsible federal custodian.” Id.
at 143 (quotation and citation omitted).
However, requiring that a person who contests all
three elements in an Adam Walsh Act case be
minimal
fiscal
and
pose
will
competent
administrative burdens to the government. First, as
the history of the Adam Walsh Act cases in the
Eastern District of North Carolina reflects, the issue

62a
of competence rarely arises in section 4248 cases.
Moreover, the issue of competency coupled with a
respondent who lacks a conviction for attempted or
actual sexually violent conduct or child molestation,
arises even less frequently. Indeed, to this court’s
knowledge, the issues presented in this Adams
Walsh Act case have never arisen in the 183 other
Adam Walsh Act cases in the Eastern District of
North Carolina. Second, if the issue of competency
does arise, the case will involve a person who faced
federal criminal charges, received a competency
evaluation under 18 U.S.C. § 4241, and was found
incompetent to face criminal charges. The person will
then be evaluated for commitment under 18 U.S.C.
§ 4246. If committed under section 4246, the person
will receive treatment under section 4246 and the
United States will not seek commitment under
section 4248.
If not committed under section 4246, and the
government seeks commitment under section 4248,
and the person contests all three elements, and the
person arguably is not competent to proceed in the
section 4248 case, the court can receive a psychiatric
or psychological report concerning the person’s
competence. See 18 U.S.C. §§ 4247-48. The court can
then hold a competency hearing. If the person is
found competent, the section 4248 case proceeds. If
the person is found not competent, the court can
notify the responsible state authorities about the
procedural history of the case and permit responsible
state authorities to decide whether to commit the
person under applicable state law. For example,
many states have their own versions of 18 U.S.C.
§ 4246, including statutes that permit the civil

63a
commitment of seriously mentally ill persons or
seriously developmentally disabled persons. Cf.
Mont. Code Ann. § 53-20-121 et seq. (2017)
(commitment of seriously developmentally disabled
individuals); Mont. Code Ann. § 53-21-121 et seq.
(2017) (commitment of seriously mentally ill
individuals). Thus, the government’s interest in
delivering mental health care to an allegedly
sexually dangerous person in its custody is
substantial, but requiring that a person who contests
all three elements be competent imposes little
additional costs. See Mathews. 424 U.S. at 335.
Furthermore, in analyzing the third Mathews factor,
the court cannot presuppose that the person is a
sexually dangerous person.
4.
Balancing the factors, the private interest that is
affected by commitment under 18 U.S.C. § 4248 is
extraordinary. Moreover, the government’s interest
in committing an incompetent person who contests
all three elements is slight. Finally, the risk of
erroneous deprivation of liberty is great when the
government seeks to commit an incompetent person
who contests all three elements under the Adam
Walsh Act. Thus, if (as the United States asserts) the
Adam Walsh Act permits the trial and commitment
of an incompetent person who contests all three
elements, then the Adam Walsh Act as applied to
that incompetent person would violate procedural
due process.
III.
motion
In
sum,
the
government’s
reconsideration [D.E. 98] is DENIED.

for
The

64a
competency hearing scheduled for November 29,
proceed.
shall
2018,
SO ORDERED. This 26 day of November 2018.
/s/ James Dever
JAMES C. DEVER III
United States District Judge

65a
APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT
OF NORTH CAROLINA
WESTERN DIVISION
No. 5:17-HC-2162-D
United States of America,
Petitioner,
v.
Oliver Lee White,
Respondent.
Filed: 12/06/2018
ORDER
The United States seeks to have the court commit
Oliver Lee White (“White”) as a sexually dangerous
person under 18 U.S.C. §§ 4247-48. White has never
been convicted of any crime and contests all three
elements under the Adam Walsh Act. See Order
[D.E. 103] (denying motion for reconsideration). On
November 29, 2018, the court held a competency
hearing concerning White [D.E. 107].
As explained in open court and incorporated by
reference, the court has considered the entire record
and the arguments of counsel. White is currently

66a
suffering from a mental disease or defect (i.e.,
Intellectual Disability, Moderate to Severe), which
renders White unable to understand the nature and
consequences of the section 4248 proceeding against
him and to assist properly in his defense in the
section 4248 proceeding. See [D.E. 110] (report of Dr.
Stelmach) (diagnosing White with Intellectual
Disability, Moderate to Severe, and finding that
White is not competent to proceed in a 4248
proceeding); see also [D.E. 89] (additional report of
Dr. Stelmach); cf. [D.E. 102] (report of Dr. Rigsbee)
(diagnosing White with Intellectual Disability, Mild,
and finding that White is not competent to proceed in
a section 4248 proceeding). White also suffers from
Fetal Alcohol Syndrome. See [D.E. 110]; [D.E. 89].
Doctors cannot medicate White to attain competency,
and multiple efforts to help White attain competency
through therapy have not worked due to White’s
intellectual disability. See, e.g.. [D.E. 102] 7-10.
Nonetheless, the United States argues that a
respondent’s competency is never relevant in a
section 4248 proceeding.
The court credits the testimony and report of Dr.
Stelmach and finds that White is presently suffering
from a mental disease or defect (i.e., Intellectual
Disability, Moderate to Severe) rendering him
mentally incompetent to understand the nature and
consequences of the section 4248 proceeding against
him and to assist properly in his defense in the
section 4248 proceeding. White also suffers from
Fetal Alcohol Syndrome. Moreover, the court rejects
the government’s argument that competency is never
relevant in a section 4248 proceeding. As explained
at length in this court’s order of November 26, 2018

67a
[D.E. 103], competency is relevant in a section 4248
proceeding where the respondent contests all three
elements under the Adam Walsh Act. Furthermore,
the Adam Walsh Act permits a court to dismiss a
section 4248 proceeding against an incompetent
person who contests all three elements. IcL at 2-11.
Alternatively, if the Adam Walsh Act does not permit
a court to dismiss a section 4248 proceeding against
an incompetent person who contests all three
elements under the Adam Walsh Act, then
permitting such a trial and ensuing commitment
would violate procedural due process as applied to
that person. See id. at 10-20. Given that White is
incompetent and cannot attain competency via
medicine or therapy and that White contests all
three elements under the Adam Walsh Act, the court
grants White’s motion to dismiss this section 4248
proceeding.
In sum, the court GRANTS White’s motion to
dismiss [D.E. 37] and DISMISSES WITHOUT
PREJUDICE this section 4248 proceeding. The
government’s case against White under 18 U.S.C.
§ 4246 remains pending before the Honorable W.
Earl Britt. See United States v. White. 5:18-HC2295-BR (E.D.N.C.); see also 18 U.S.C. § 4246(a).
SO ORDERED. This 6 day of December 2018.
/s/ James Dever
JAMES C. DEVER III
United States District Judge

68a
APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-6181
(5:17-hc-02162-D)
United States of America,
Petitioner-Appellant,
v.
Oliver Lee White,
Respondent-Appellee.

ORDER
FILED: August 16, 2019
The court denies the petition for rehearing and
rehearing en banc. No judge requested a poll under
Fed. R. App. P. 35 on the petition for rehearing en
banc.
Entered at the direction of the panel: Judge
Niemeyer, Judge Diaz, and Judge Richardson.
For the Court
/s/ Patricia S. Connor. Clerk

69a
APPENDIX G

STATUTORY PROVISIONS INVOLVED
18 U.S.C A. § 4241 provides:
1.
Determination of mental competency to stand
trial to undergo postrelease proceedings1
(a) Motion to determine competency of
defendant.-At any time after the commencement of
a prosecution for an offense and prior to the
sentencing of the defendant, or at any time after the
commencement of probation or supervised release
and prior to the completion of the sentence, the
defendant or the attorney for the Government may
file a motion for a hearing to determine the mental
competency of the defendant. The court shall grant
the motion, or shall order such a hearing on its own
motion, if there is reasonable cause to believe that
the defendant may presently be suffering from a
mental disease or defect rendering him mentally
incompetent to the extent that he is unable to
understand the nature and consequences of the
proceedings against him or to assist properly in his
defense.
(b) Psychiatric or psychological examination
and report.—Prior to the date of the hearing, the
court may order that a psychiatric or psychological
examination of the defendant be conducted, and that
a psychiatric or psychological report be filed with the
1 So in original. Probably should be “stand trial or to undergo
postrelease proceedings”.

70a
court, pursuant to the provisions of section 4247(b)
and (c).
(c) Hearing.-The hearing shall be conducted
pursuant to the provisions of section 4247(d).
(d) Determination and disposition.-If, after
the hearing, the court finds by a preponderance of
the evidence that the defendant is presently
suffering from a mental disease or defect rendering
him mentally incompetent to the extent that he is
unable to understand the nature and consequences of
the proceedings against him or to assist properly in
his defense, the court shall commit the defendant to
the custody of the Attorney General. The Attorney
General shall hospitalize the defendant for
treatment in a suitable facility—
(1) for such a reasonable period of time, not to
exceed four months, as is necessary to determine
whether there is a substantial probability that in
the foreseeable future he will attain the capacity
to permit the proceedings to go forward; and
(2) for an additional reasonable period of time
until—
(A) his mental condition is so improved that
trial may proceed, if the court finds that there is
a substantial probability that within such
additional period of time he will attain the
capacity to permit the proceedings to go
forward; or
(B) the pending charges against him are
disposed of according to law;

71a
whichever is earlier.
If, at the end of the time period specified, it is
determined that the defendant’s mental condition
has not so improved as to permit the proceedings to
go forward, the defendant is subject to the provisions
of sections 4246 and 4248.
(e) Discharge.-When the director of the facility
in which a defendant is hospitalized pursuant to
subsection (d) determines that the defendant has
recovered to such an extent that he is able to
understand the nature and consequences of the
proceedings against him and to assist properly in his
defense, he shall promptly file a certificate to that
effect with the clerk of the court that ordered the
commitment. The clerk shall send a copy of the
certificate to the defendant’s counsel and to the
attorney for the Government. The court shall hold a
hearing, conducted pursuant to the provisions of
section 4247(d), to determine the competency of the
defendant. If, after the hearing, the court finds by a
preponderance of the evidence that the defendant
has recovered to such an extent that he is able to
understand the nature and consequences of the
proceedings against him and to assist properly in his
defense, the court shall order his immediate
discharge from the facility in which he is hospitalized
and shall set the date for trial or other proceedings.
Upon discharge, the defendant is subject to the
provisions of chapters 207 and 227.
(f) Admissibility of finding of competency.—
A finding by the court that the defendant is mentally
competent to stand trial shall not prejudice the

72a
defendant in raising the issue of his insanity as a
defense to the offense charged, and shall not be
admissible as evidence in a trial for the offense
charged.
2.
18 U.S.C.A. § 4246 provides:
Hospitalization of a person due for release but
suffering from mental disease or defect
(a) Institution of proceeding.-If the director of
a facility in which a person is hospitalized certifies
that a person in the custody of the Bureau of Prisons
whose sentence is about to expire, or who has been
committed to the custody of the Attorney General
pursuant to section 4241(d), or against whom all
criminal charges have been dismissed solely for
reasons related to the mental condition of the person,
is presently suffering from a mental disease or defect
as a result of which his release would create a
substantial risk of bodily injury to another person or
serious damage to property of another, and that
suitable arrangements for State custody and care of
the person are not available, he shall transmit the
certificate to the clerk of the court for the district in
which the person is confined. The clerk shall send a
copy of the certificate to the person, and to the
attorney for the Government, and, if the person was
committed pursuant to section 4241(d), to the clerk
of the court that ordered the commitment. The court
shall order a hearing to determine whether the
person is presently suffering from a mental disease
or defect as a result of which his release would create
a substantial risk of bodily injury to another person
or serious damage to property of another. A
certificate filed under this subsection shall stay the

73a
release of the person pending completion
procedures contained in this section.

of

(b) Psychiatric or psychological examination
and report.—Prior to the date of the hearing, the
court may order that a psychiatric or psychological
examination of the defendant be conducted, and that
a psychiatric or psychological report be filed with the
court, pursuant to the provisions of section 4247(b)
and (c).
(c) Hearing.—The hearing shall be conducted
pursuant to the provisions of section 4247(d).
(d) Determination and disposition.-If, after
the hearing, the court finds by clear and convincing
evidence that the person is presently suffering from
a mental disease or defect as a result of which his
release would create a substantial risk of bodily
injury to another person or serious damage to
property of another, the court shall commit the
person to the custody of the Attorney General. The
Attorney General shall release the person to the
appropriate official of the State in which the person
is domiciled or was tried if such State will assume
responsibility for his custody, care, and treatment.
The Attorney General shall make all reasonable
efforts to cause such a State to assume such
responsibility. If, notwithstanding such efforts,
neither such State will assume such responsibility,
the Attorney General shall hospitalize the person for
treatment in a suitable facility, until—
(1) such a State will assume such responsibility;
or

74a
(2) the person’s mental condition is such that his
release, or his conditional release under a
prescribed regimen of medical, psychiatric, or
psychological care or treatment would not create
a substantial risk of bodily injury to another
person or serious damage to property of another;
whichever is earlier. The Attorney General shall
continue periodically to exert all reasonable efforts to
cause such a State to assume such responsibility for
the person’s custody, care, and treatment.
(e) Discharge.-When the director of the facility
in which a person is hospitalized pursuant to
subsection (d) determines that the person has
recovered from his mental disease or defect to such
an extent that his release would no longer create a
substantial risk of bodily injury to another person or
serious damage to property of another, he shall
promptly file a certificate to that effect with the clerk
of the court that ordered the commitment. The clerk
shall send a copy of the certificate to the person’s
counsel and to the attorney for the Government. The
court shall order the discharge of the person or, on
the motion of the attorney for the Government or on
its own motion, shall hold a hearing, conducted
pursuant to the provisions of section 4247(d), to
determine whether he should be released. If, after
the hearing, the court finds by a preponderance of
the evidence that the person has recovered from his
mental disease or defect to such an extent that—
(1) his release would no longer create a
substantial risk of bodily injury to another person
or serious damage to property of another, the

75a
court shall order that he be immediately
discharged; or
(2) his conditional release under a prescribed
regimen of medical, psychiatric, or psychological
care or treatment would no longer create a
substantial risk of bodily injury to another person
or serious damage to property of another, the
court shall—
(A) order that he be conditionally discharged
under a prescribed regimen of medical,
psychiatric, or psychological care or treatment
that has been prepared for him, that has been
certified to the court as appropriate by the
director of the facility in which he is committed,
and that has been found by the court to be
appropriate; and
(B) order, as an explicit condition of release,
that he comply with the prescribed regimen of
medical, psychiatric, or psychological care or
treatment.
The court at any time may, after a hearing
employing the same criteria, modify or
eliminate the regimen of medical, psychiatric, or
psychological care or treatment.
(f) Revocation of conditional discharge.-The
director of a medical facility responsible for
administering a regimen imposed on a person
conditionally discharged under subsection (e) shall
notify the Attorney General and the court having
jurisdiction over the person of any failure of the
person to comply with the regimen. Upon such notice,
or upon other probable cause to believe that the
person has failed to comply with the prescribed

76a
regimen of medical, psychiatric, or psychological care
or treatment, the person may be arrested, and, upon
arrest, shall be taken without unnecessary delay
before the court having jurisdiction over him. The
court shall, after a hearing, determine whether the
person should be remanded to a suitable facility on
the ground that, in light of his failure to comply with
the prescribed regimen of medical, psychiatric, or
psychological care or treatment, his continued
release would create a substantial risk of bodily
injury to another person or serious damage to
property of another.
(g) Release to state of certain other persons.-If the director of a facility in which a person is
hospitalized pursuant to this chapter certifies to the
Attorney General that a person, against whom all
charges have been dismissed for reasons not related
to the mental condition of the person, is presently
suffering from a mental disease or defect as a result
of which his release would create a substantial risk
of bodily injury to another person or serious damage
to property of another, the Attorney General shall
release the person to the appropriate official of the
State in which the person is domiciled or was tried
for the purpose of institution of State proceedings for
civil commitment. If neither such State will assume
such responsibility, the Attorney General shall
release the person upon receipt of notice from the
State that it will not assume such responsibility, but
not later than ten days after certification by the
director of the facility.
(h) Definition.-As used in this chapter the term
“State” includes the District of Columbia.

77a
3.
18 U.S.C.A. § 4247 provides:
General provisions for chapter
(a) Definitions.—As used in this chapter—
(1) “rehabilitation program” includes—
(A) basic educational training that will assist
the individual in understanding the society to
which he will return and that will assist him in
understanding the magnitude of his offense and
its impact on society;
(B) vocational training that will assist the
individual in contributing to, and in
participating in, the society to which he will
return;
(C) drug, alcohol, and sex offender treatment
programs, and other treatment programs that
will assist the individual in overcoming a
psychological or physical dependence or any
condition that makes the individual dangerous
to others; and
(D) organized physical sports and recreation
programs;
(2) “suitable facility” means a facility that is
suitable to provide care or treatment given the
nature of the offense and the characteristics of
the defendant;
(3) “State” includes the District of Columbia;
(4) “bodily injury” includes sexual abuse;
(5) “sexually dangerous person” means a person
who has engaged or attempted to engage in
sexually violent conduct or child molestation and
who is sexually dangerous to others; and

78a
(6) “sexually dangerous to others” with respect2 a
person, means that the person suffers from a
serious mental illness, abnormality, or disorder as
a result of which he would have serious difficulty
in refraining from sexually violent conduct or
child molestation if released.
psychological
or
(b) Psychiatric
examination.-A psychiatric or psychological
examination ordered pursuant to this chapter shall
be conducted by a licensed or certified psychiatrist or
psychologist, or, if the court finds it appropriate, by
more than one such examiner. Each examiner shall
be designated by the court, except that if the
examination is ordered under section 4245, 4246, or
4248, upon the request of the defendant an
additional examiner may be selected by the
defendant. For the purposes of an examination
pursuant to an order under section 4241, 4244,
or 4245, the court may commit the person to be
examined for a reasonable period, but not to exceed
thirty days, and under section 4242, 4243, 4246,
or 4248, for a reasonable period, but not to exceed
forty-five days, to the custody of the Attorney
General for placement in a suitable facility. Unless
impracticable, the psychiatric or psychological
examination shall be conducted in the suitable
facility closest to the court. The director of the
facility may apply for a reasonable extension, but not
to exceed fifteen days under section 4241, 4244, or
4245, and not to exceed thirty days under section
2 So in original. Probably should be followed by “to”.
18 U.S.C.A. § 4247, 18 USCA § 4247
Current through P.L. 116-66.

79a
4242, 4243, 4246, or 4248, upon a showing of good
cause that the additional time is necessary to
observe and evaluate the defendant.
(c) Psychiatric or psychological reports.—A
psychiatric or psychological report ordered pursuant
to this chapter shall be prepared by the examiner
designated to conduct the psychiatric or
psychological examination, shall be filed with the
court with copies provided to the counsel for the
person examined and to the attorney for the
Government, and shall include(1) the person’s history and present symptoms;
(2) a description of the psychiatric, psychological,
and medical tests that were employed and their
results;
(3) the examiner’s findings; and
(4) the examiner’s opinions as to diagnosis,
prognosis, and—
(A) if the examination is ordered under section
4241, whether the person is suffering from a
mental disease or defect rendering him mentally
incompetent to the extent that he is unable to
.understand the nature and consequences of the
proceedings against him or to assist properly in
his defense;
(B) if the examination is ordered under section
4242, whether the person was insane at the
time of the offense charged;
(C) if the examination is ordered under section
4243 or 4246, whether the person is suffering
from a mental disease or defect as a result of
which his release would create a substantial

80a
risk of bodily injury to another person or serious
damage to property of another;
(D) if the examination is ordered under section
4248, whether the person is a sexually
dangerous person;
(E) if the examination is ordered under section
4244 or 4245, whether the person is suffering
from a mental disease or defect as a result of
which he is in need of custody for care or
treatment in a suitable facility; or (F) if the
examination is ordered as a part of a
presentence investigation, any recommendation
the examiner may have as to how the mental
condition of the defendant should affect the
sentence.
(d) Hearing.-At a hearing ordered pursuant to
this chapter the person whose mental condition is
the subject of the hearing shall be represented by
counsel and, if he is financially unable to obtain
adequate representation, counsel shall be appointed
for him pursuant to section 3006A. The person shall
be afforded an opportunity to testify, to present
evidence, to subpoena witnesses on his behalf, and to
confront and cross-examine witnesses who appear at
the hearing.
(e) Periodic
report
and
information
requirements.-(l) The director of the facility in
which a person is committed pursuant to—
(A) section 4241 shall prepare semiannual
reports; or
(B) section 4243, 4244, 4245, 4246, or 4248 shall
prepare annual reports concerning the mental

81a
condition of the person and containing
recommendations concerning the need for his
continued commitment. The reports shall be
submitted to the court that ordered the person’s
commitment to the facility and copies of the
reports shall be submitted to such other persons
as the court may direct. A copy of each such
report concerning a person committed after the
beginning of a prosecution of that person for
violation of section 871, 879, or 1751 of this title
shall be submitted to the Director of the United
States Secret Service. Except with the prior
approval of the court, the Secret Service shall not
use or disclose the information in these copies for
any purpose other than carrying out protective
duties under section 3056(a) of this title.
(2) The director of the facility in which a person is
committed pursuant to section 4241, 4243, 4244,
4245, 4246, or 4248 shall inform such person of any
rehabilitation programs that are available for
persons committed in that facility.
(f) Videotape record.-Upon written request of
defense counsel, the court may order a videotape
record made of the defendant’s testimony or
interview upon which the periodic report is based
pursuant to subsection (e). Such videotape record
shall be submitted to the court along with the
periodic report.
unimpaired.-Nothing
corpus
(g) Habeas
contained in section 4243, 4246, or 4248 precludes a
person who is committed under either of such
sections from establishing by writ of habeas corpus
the illegality of his detention.

82a
(h) Discharge.-Regardless of whether the
director of the facility in which a person is committed
has filed a certificate pursuant to the provisions of
subsection (e) of section 4241, 4244, 4245, 4246, or
4248, or subsection (f) of section 4243, counsel for the
person or his legal guardian may, at any time during
such person’s commitment, file with the court that
ordered the commitment a motion for a hearing to
determine whether the person should be discharged
from such facility, but no such motion may be filed
within one hundred and eighty days of a court
determination that the person should continue to be
committed. A copy of the motion shall be sent to the
director of the facility in which the person is
committed and to the attorney for the Government.
(i) Authority and responsibility of the
Attorney General.—The Attorney General—
(A) may contract with a State, a political
subdivision, a locality, or a private agency for the
confinement, hospitalization, care, or treatment of,
or the provision of services to, a person committed
to his custody pursuant to this chapter;
(B) may apply for the civil commitment, pursuant
to State law, of a person committed to his custody
pursuant to section 4243, 4246, or 4248;
(C) shall, before placing a person in a facility
pursuant to the provisions of section 4241, 4243,
4244, 4245, 4246, or 4248, consider the suitability
of the facility’s rehabilitation programs in
meeting the needs of the person; and
(D) shall consult with the Secretary of the
Department of Health and Human Services in the
general implementation of the provisions of this

83a
chapter and in the establishment of standards for
facilities used in the implementation of this
chapter.
(j) Sections 4241, 4242, 4243, and 4244 do not
apply to a prosecution under an Act of Congress
applicable exclusively to the District of Columbia or
the Uniform Code of Military Justice.
18 U.S.C.A. § 4248 provides:
4.
Civil commitment of a sexually dangerous
person
(a) Institution of proceedings.—In relation to a
person who is in the custody of the Bureau of
Prisons, or who has been committed to the custody of
the Attorney General pursuant to section 4241(d), or
against whom all criminal charges have been
dismissed solely for reasons relating to the mental
condition of the person, the Attorney General or any
individual authorized by the Attorney General or the
Director of the Bureau of Prisons may certify that
the person is a sexually dangerous person, and
transmit the certificate to the clerk of the court for
the district in which the person is confined. The clerk
shall send a copy of the certificate to the person, and
to the attorney for the Government, and, if the
person was committed pursuant to section 4241(d),
to the clerk of the court that ordered the
commitment. The court shall order a hearing to
determine whether the person is a sexually
dangerous person. A certificate filed under this
subsection shall stay the release of the person
pending completion of procedures contained in this
section.

84a
(b) Psychiatric or psychological examination
and report.—Prior to the date of the hearing, the
court may order that a psychiatric or psychological
examination of the defendant be conducted, and that
a psychiatric or psychological report be filed with the
court, pursuant to the provisions of section 4247(b)
and (c).
(c) Hearing.-The hearing shall be conducted
pursuant to the provisions of section 4247(d).
(d) Determination and disposition.-If, after
the hearing, the court finds by clear and convincing
evidence that the person is a sexually dangerous
person, the court shall commit the person to the
custody of the Attorney General. The Attorney
General shall release the person to the appropriate
official of the State in which the person is domiciled
or was tried if such State will assume responsibility
for his custody, care, and treatment. The Attorney
General shall make all reasonable efforts to cause
such a State to assume such responsibility. If,
notwithstanding such efforts, neither such State will
assume such responsibility, the Attorney General
shall place the person for treatment in a suitable
facility, until—
(1) such a State will assume such responsibility;
or
(2) the person’s condition is such that he is no
longer sexually dangerous to others, or will not be
sexually dangerous to others if released under a
prescribed regimen of medical, psychiatric, or
psychological care or treatment;
whichever is earlier.

85a
(e) Discharge.-When the Director of the facility
in which a person is placed pursuant to subsection
(d) determines that the person’s condition is such
that he is no longer sexually dangerous to others, or
will not be sexually dangerous to others if released
under a prescribed regimen of medical, psychiatric,
or psychological care or treatment, he shall promptly
file a certificate to that effect with the clerk of the
court that ordered the commitment. The clerk shall
send a copy of the certificate to the person’s counsel
and to the attorney for the Government. The court
shall order the discharge of the person or, on motion
of the attorney for the Government or on its own
motion, shall hold a hearing, conducted pursuant to
the provisions of section 4247(d), to determine
whether he should be released. If, after the hearing,
the court finds by a preponderance of the evidence
that the person’s condition is such that—
(1) he will not be sexually dangerous to others if
released unconditionally, the court shall order
that he be immediately discharged; or
(2) he will not be sexually dangerous to others if
released under a prescribed regimen of medical,
psychiatric, or psychological care or treatment,
the court shall—
(A) order that he be conditionally discharged
under a prescribed regimen of medical,
psychiatric, or psychological care or treatment
that has been prepared for him, that has been
certified to the court as appropriate by the
Director of the facility in which he is committed,
and that has been found by the court to be
appropriate; and

86a
(B) order, as an explicit condition of release,
that he comply with the prescribed regimen of
medical, psychiatric, or psychological care or
treatment.
The court at any time may, after a hearing
employing the same criteria, modify or
eliminate the regimen of medical, psychiatric, or
psychological care or treatment.
(f) Revocation of conditional discharge.—The
director of a facility responsible for administering a
regimen imposed on a person conditionally
discharged under subsection (e) shall notify the
Attorney General and the court having jurisdiction
over the person of any failure of the person to comply
with the regimen. Upon such notice, or upon other
probable cause to believe that the person has failed
to comply with the prescribed regimen of medical,
psychiatric, or psychological care or treatment, the
person may be arrested, and, upon arrest, shall be
taken without unnecessary delay before the court
having jurisdiction over him. The court shall, after a
hearing, determine whether the person should be
remanded to a suitable facility on the ground that he
is sexually dangerous to others in light of his failure
to comply with the prescribed regimen of medical,
psychiatric, or psychological care or treatment.
(g) Release to State of certain other persons.-If the director of the facility in which a person is
hospitalized or placed pursuant to this chapter
certifies to the Attorney General that a person,
against whom all charges have been dismissed for
reasons not related to the mental condition of the
person, is a sexually dangerous person, the Attorney

87a
General shall release the person to the appropriate
official of the State in which the person is domiciled
or was tried for the purpose of institution of State
proceedings for civil commitment. If neither such
State will assume such responsibility, the Attorney
General shall release the person upon receipt of
notice from the State that it will not assume such
responsibility, but not later than 10 days after
certification by the director of the facility.

